VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS




                                                                      Inspection of 

                                                                    VA Regional Office 

                                                                      Togus, Maine 





                                                                                  September 9, 2013
                                                                                   13-02257-294
             ACRONYMS AND ABBREVIATIONS 


OIG          Office of Inspector General
RVSR         Rating Veterans Service Representative
SAO          Systematic Analysis of Operations
STAR         Systematic Technical Accuracy Review
TBI          Traumatic Brain Injury
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration
VSC          Veterans Service Center




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                          Telephone: 1-800-488-8244 

                          Email: vaoighotline@va.gov

           (Hotline Information: www.va.gov/oig/hotline/default.asp) 

                 Report Highlights: Inspection of VA
                 Regional Office Togus, ME


Why We Did This Review                          jurisdiction. However, we could not fully
                                                assess the effectiveness of these outreach
The Veterans Benefits Administration            activities because VBA lacked performance
(VBA) has 56 VA Regional Offices                metrics for its Homeless Veterans Outreach
(VAROs) and 1 Veterans Service Center in        Program.
Cheyenne, Wyoming, that process disability
claims and provide a range of services to       What We Recommend
veterans. We evaluated the Togus VARO to
see how well it accomplishes this mission.      The VARO Director should implement a
                                                plan to ensure staff return insufficient
What We Found                                   medical examination reports to obtain the
                                                evidence required to support traumatic brain
Overall, VARO staff did not accurately          injury evaluations. The Director also needs
process 4 of 39 disability claims reviewed.     to implement a plan to ensure staff
We sampled claims we considered at higher       completely and timely address all required
risk of processing errors, thus these results   elements of Systematic Analyses of
do not represent the overall accuracy of        Operations.
disability claims processing at this VARO.
Claims processing lacked consistent             Agency Comments
compliance with VBA procedures and
resulted in paying inaccurate and               The     Director   concurred      with     our
unnecessary financial benefits.                 recommendations but did not agree with 2 of
                                                the 4 claims processing errors identified.
Generally, VARO staff processed temporary       Thus, management’s planned actions are
100 percent disability evaluations correctly.   responsive and we will follow up as required.
However, staff incorrectly processed 2 of
9 traumatic brain injury claims.      These
errors occurred because staff used
insufficient medical examination reports and
misinterpreted VBA policy when rating the
claims.
                                                          LINDA A. HALLIDAY
Systematic Analyses of Operations were                Assistant Inspector General
incomplete and untimely. VARO managers                 for Audits and Evaluations
lacked adequate measures to ensure staff
addressed all required elements and
submitted the annual analyses by the due
date. Staff accurately addressed Gulf War
veterans’ entitlement to mental health
treatment and provided adequate outreach to
homeless veterans in the VARO’s area of

                                                                                           i
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    I. 	 Disability Claims Processing ...............................................................................................2
 

           Finding 1              Togus VARO Could Improve Disability Claims Processing 

                                  Accuracy ......................................................................................................2
 

                                  Recommendation .........................................................................................5
 

    II. 	Management Controls ..........................................................................................................7


           Finding 2              Oversight Is Needed To Ensure Timely and Complete Systematic 

                                  Analyses of Operations ................................................................................7


                                  Recommendation .........................................................................................7


    III. Eligibility Determinations....................................................................................................9


    IV. Public Contact ....................................................................................................................10


Appendix A                        VARO Profile, Scope, and Methodology of Inspection ............................11
 

Appendix B                        Inspection Summary ..................................................................................13


Appendix C                        VARO Director’s Comments.....................................................................14


Appendix D                        OIG Contact and Staff Acknowledgments ................................................16


Appendix E                        Report Distribution ....................................................................................17





                                                                                                                                                 ii
                                                                    Inspection of VARO Togus, ME



                    INTRODUCTION
Objective           The Benefits Inspection Program is part of the Office of Inspector General’s
                    (OIG) efforts to ensure our Nation’s veterans receive timely and accurate
                    benefits and services. The Benefits Inspection Divisions contribute to
                    improved management of benefits processing activities and veterans’
                    services by conducting onsite inspections at VA Regional Offices (VAROs).
                    These independent inspections provide recurring oversight focused on
                    disability compensation claims processing and performance of Veterans
                    Service Center (VSC) operations. The objectives of the inspections are to:

                    	 Evaluate how well VAROs are accomplishing their mission of providing
                       veterans with access to high-quality benefits and services.
                    	 Determine whether management controls ensure compliance with VA
                       regulations and policies; assist management in achieving program goals;
                       and minimize the risk of fraud, waste, and other abuses.
                    	 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or allegations
                    referred by VA employees, members of Congress, or other stakeholders.

Scope of            In May 2013, we inspected the Togus VARO. The inspection focused on the
Inspection          following four protocol areas—disability claims processing, management
                    controls, eligibility determinations, and public contact. Within the five
                    operational activities, we examined two high-risk claims processing areas of
                    temporary 100 percent disability evaluations and traumatic brain injury (TBI)
                    claims. We also examined three other operational activities—Systematic
                    Analyses of Operations (SAOs), Gulf War veterans’ entitlement to mental
                    health treatment, and the Homeless Veterans Outreach Program.

                    We reviewed 30 (24 percent) of 127 rating decisions where VARO staff
                    granted temporary 100 percent disability evaluations for at least 18 months.
                    This is generally the longest period a temporary 100 percent disability
                    evaluation may be assigned without review, according to Veterans Benefits
                    Administration (VBA) policy. We examined 9 (69 percent) of the total
                    13 TBI-related disability claims that VARO staff completed from January
                    through March 2013. Four of the 13 claims folders were unavailable for
                    review because the folders were transferred to other offices for additional
                    claims processing actions.

Other               	 Appendix A includes details on the VARO and the scope of our
Information            inspection.
                     Appendix B outlines criteria we used to evaluate each operational
                       activity and a summary of our inspection results.
                     Appendix C provides the VARO Director’s comments on this report.

VA Office of Inspector General                                                                 1
                                                                          Inspection of VARO Togus, ME



                     RESULTS AND RECOMMENDATIONS
                     I. Disability Claims Processing

Claims               The OIG Benefits Inspection team focused on accuracy in processing
Processing           temporary 100 percent disability evaluations and TBI claims. We evaluated
Accuracy
                     these claims processing issues and assessed their impact on veterans’
                     benefits.

 Finding 1 	         Togus VARO Could Improve Disability Claims Processing
                     Accuracy

                     The Togus VARO did not consistently process 100 percent disability
                     evaluations and TBI cases accurately. Overall, VARO staff incorrectly
                     processed 4 of the total 39 disability claims we sampled.

                     We sampled claims related to specific conditions we considered to be at
                     higher risk of processing errors. As a result, the errors identified do not
                     represent the universe of disability claims processed at this VARO. As
                     reported by VBA’s Systematic Technical Accuracy Review (STAR) program
                     as of March 2013, the overall accuracy of the VARO’s compensation
                     rating-related decisions was 93.9 percent—3.9 percentage points above
                     VBA’s FY 2013 target of 90 percent. The STAR program information was
                     not reviewed during the scope of this inspection. The following table reflects
                     the error affecting, and those with the potential to affect, veterans’ benefits
                     processed at the Togus VARO.

 Table 1
                                  Togus VARO Disability Claims Processing Accuracy
                                                                     Claims Inaccurately Processed
                                                 Number
                            Type of Claim       of Claims    Affecting       Potential To       Total
                                                Reviewed     Veterans’      Affect Veterans’
                                                              Benefits          Benefits        Errors

                       Temporary 100 Percent
                                                   30            1                  1                2
                       Disability Evaluations
                       Traumatic Brain Injury
                                                    9            0                  2                2
                       Claims
                         Total                     39            1                  3                4
                     Source: VAOIG analysis of VBA’s temporary 100 percent disability evaluations paid at
                     least 18 months or longer and TBI disability claims completed in the second quarter
                     FY 2013

 Temporary           Generally, VARO staff followed VBA policy when processing temporary
 100 Percent         100 percent disability evaluations. VBA policy requires a temporary
 Disability
 Evaluations
                     100 percent disability evaluation for a service-connected disability following
                     a veteran’s surgery or when specific treatment is needed. At the end of a

 VA Office of Inspector General                                                                          2
                                                                     Inspection of VARO Togus, ME


                    mandated period of convalescence or treatment, VARO staff must request a
                    follow-up medical examination to help determine whether to continue the
                    veteran’s 100 percent disability evaluation.

                    VARO staff correctly processed 28 of 30 temporary 100 percent disability
                    evaluations we reviewed. In the two cases with processing errors, VARO
                    staff delayed scheduling medical reexaminations. An average of 4 years and
                    2 months elapsed from the time staff should have scheduled these medical
                    reexaminations until the time the exams were completed. One of the
                    processing errors affected a veteran’s benefits and the other had the potential
                    to affect benefits. Details on the two errors follow.

                    	 In an October 2008 rating decision, a Rating Veterans Service
                       Representative (RVSR) established service connection for a veteran’s
                       prostate cancer and requested an immediate VA examination to assess
                       residual disabilities associated with a prostatectomy. Although VARO
                       staff took action to begin compensation payments, they did not schedule
                       the VA examination as requested. Consequently, the veteran received
                       48 improper monthly payments totaling $92,687.
                    	 In a November 2008 rating decision, an RVSR established service
                       connection for a veteran’s prostate cancer and determined a
                       reexamination was required in April 2009. However, staff did not enter a
                       suspense diary in the electronic record for the reexamination as required.
                       Without this input the system could not generate a reminder notification
                       to alert staff to schedule the reexamination. In June 2012, VBA
                       subsequently modified its electronic system to allow automatic
                       population and retention of suspense diaries in the electronic record to
                       schedule reexaminations related to confirmed and continued rating
                       decisions.

                    Because VARO staff accurately processed most of the temporary
                    100 percent disability evaluation claims we reviewed, we make no
                    recommendation for improvement in this area. Nonetheless, VARO
                    managers disagreed with our assessments in the two cases we identified as
                    having processing errors. Management stated both cases were included on a
                    listing they received from the Eastern Area Office in January 2013.
                    Management contended these two cases were being reviewed by the VARO
                    as part of VBA’s national review, conducted in response to a prior OIG audit
                    discussed on the next page.

Actions Taken       In response to a recommendation in our national report, Audit of 100 Percent
in Response to      Disability Evaluations (Report No. 09-03359-71, dated January 24, 2011),
Prior Audit         the then-Acting Under Secretary for Benefits agreed to review all temporary
Report              100 percent disability evaluations and ensure each evaluation had a future
                    examination date entered in the electronic record. Our report stated, “If
                    VBA does not take timely corrective action, they will overpay veterans a


VA Office of Inspector General                                                                   3
                                                                    Inspection of VARO Togus, ME


                    projected $1.1 billion over the next 5 years.” The then-Acting Under
                    Secretary for Benefits stated in response to our audit report that the target
                    completion date for the national review would be September 30, 2011.

                    However, VBA did not provide each VARO with a list of temporary
                    100 percent disability evaluations for review until September 2011. VBA
                    subsequently extended the national review deadline to December 31, 2011,
                    and then June 30, 2012, and then again to December 31, 2012. Based on the
                    numerous delays and our continued findings, we are concerned about the
                    lack of urgency in completing this review, which is critical to minimize the
                    financial risk of making inaccurate benefits payments.

                    Further, during our 2013 inspection, we followed up on VBA’s national
                    review of its temporary 100 percent disability evaluation processing. In
                    September 2011, VBA provided the Togus VARO a list of 229 cases for
                    review. We sampled 40 of the cases and determined VARO staff accurately
                    reported to the Eastern Area Office the actions taken, such as inputting
                    suspense diaries or scheduling reexaminations. In comparing VBA’s
                    national review lists with data we compiled on temporary 100 percent
                    disability evaluations, we found no cases involving prostate cancer or
                    non-Hodgkin’s lymphoma that VBA had not identified. However, we will
                    continue monitoring this situation as VBA works to complete its national
                    review.

Follow-Up to        Our prior report, Inspection of the VA Regional Office, Togus, ME (Report
Prior VA OIG        No. 09-03659-111, dated March 23, 2010), stated 18 of the total
Inspection          30 temporary 100 percent disability evaluations we reviewed had processing
                    errors. The majority of the errors occurred when staff did not enter suspense
                    diaries in the electronic record, thereby removing the possibility that staff
                    would receive reminder notifications to schedule medical reexaminations.

                    In response to our recommendations, the Director implemented a policy
                    requiring an additional level of review for cases requiring future
                    examinations to confirm staff entered the examination dates in the electronic
                    record. The Director also agreed to review for accuracy the 27 temporary
                    100 percent disability evaluations remaining from our inspection universe.
                    The OIG closed these recommendations in July 2010.

                    During our May 2013 inspection, only 1 of the 2 processing errors we
                    identified involved staff not entering a suspense diary in the electronic
                    record. As such, we concluded the corrective actions taken by VARO staff
                    adequately addressed recommendations made in our previous inspection.

TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of brain
                    function caused by an external force. The major residual disabilities of TBI



VA Office of Inspector General                                                                  4
                                                                     Inspection of VARO Togus, ME


                    fall into three main categories—physical, cognitive, and behavioral. VBA
                    policy requires staff to evaluate these residual disabilities.

                    In response to a recommendation in our annual report, Systemic Issues
                    Reported During Inspections at VA Regional Offices (Report
                    No. 11-00510-167, dated May 18, 2011), VBA agreed to develop and
                    implement a strategy for ensuring the accuracy of TBI claims decisions. In
                    May 2011, the then-Acting Under Secretary for Benefits provided guidance
                    to VARO Directors to implement a policy requiring a second signature on
                    each TBI case an RVSR evaluates until the RVSR demonstrates 90 percent
                    accuracy in TBI claims processing. The policy indicates second-signature
                    reviewers come from the same pool of staff as those used to conduct local
                    station quality reviews.

                    VARO staff incorrectly processed two of nine TBI claims we reviewed, but
                    none of these processing errors affected veterans’ benefits. In both of these
                    cases, RVSRs prematurely evaluated TBI residuals using insufficient VA
                    medical examination reports, instead of returning the reports to the
                    examiners as required. The two cases involved examination reports where
                    the examiners did not indicate whether the veterans’ symptoms were
                    associated with a TBI or a co-morbid mental condition. Neither VARO staff
                    nor we can ascertain all of the residual disabilities of a TBI without adequate
                    or complete medical evidence.

                    Generally, errors associated with TBI claims processing occurred because
                    VSC staff misinterpreted VBA policy and used their own interpretations of
                    medical examination reports to separately evaluate TBI and co-morbid
                    mental conditions. The majority of VSC staff felt they had this authority,
                    even though the examiners did not state which symptoms were due to which
                    condition as required. As a result, veterans may not have always received
                    correct benefit decisions.

Follow-Up to        Our prior report, Inspection of the VA Regional Office, Togus, ME (Report
Prior VA OIG        No. 09-03659-111, dated March 23, 2010), stated 1 of 11 TBI claims
Inspection          reviewed were processed incorrectly, and we made no recommendation for
                    improvement in this area.              Comparatively, results of the
                    May 2013 inspection showed staff incorrectly processed two of nine TBI
                    disability claims because they misinterpreted VBA policy and used
                    inadequate medical examinations to evaluate the claims.

                    Recommendation

                    1.	 We recommend the Togus VA Regional Office Director develop and
                        implement a plan to ensure staff return insufficient medical examinations
                        to obtain the evidence required to support traumatic brain injury
                        evaluations.


VA Office of Inspector General                                                                   5
                                                                    Inspection of VARO Togus, ME


Management          The VARO Director generally concurred with our recommendation and
Response            indicated that the TBI errors identified did not impact veterans’ benefits. To
                    eliminate the use of insufficient examinations when evaluating disability
                    claims, the Veterans Service Center Manager requested TBI examinations
                    take place prior to mental disorder examinations. By conducting TBI
                    examinations first, the mental health provider has the opportunity to
                    delineate psychiatric symptoms from TBI symptoms.                Additionally,
                    employees assigned to evaluate TBI disability claims have completed VBA’s
                    TBI training and VARO staff will continue to adhere to VBA’s
                    second-signature policy.

OIG Comment         The Director’s comments and actions are responsive to the recommendation.




VA Office of Inspector General                                                                  6
                                                                   Inspection of VARO Togus, ME


                    II. Management Controls

Systematic          We assessed whether VARO management had adequate controls in place to
Analysis of         ensure complete and timely submission of SAOs. We also considered
Operations          whether VSC staff used adequate data to support analyses and
                    recommendations identified within each SAO. An SAO is a formal analysis
                    of an organizational element or operational function. SAOs provide an
                    organized means of reviewing VSC operations to identify existing or
                    potential problems and to propose corrective actions. VARO management
                    must publish annual SAO schedules designating the staff required to
                    complete the SAOs by specific dates. The VSC Manager is responsible for
                    ongoing analysis of VSC operations, including completing 11 SAOs
                    annually.

Finding 2           Oversight Is Needed To Ensure Timely and Complete Systematic
                    Analyses of Operations

                    Two of the 11 SAOs were incomplete (missing required elements) and/or
                    untimely. This occurred because VARO management did not provide
                    adequate oversight to ensure staff responsible for completing SAOs
                    addressed all required elements or submitted the analyses by the due date.
                    As a result, VARO management may not have adequately identified existing
                    and potential problems for corrective action to improve VSC operations.

                    VARO management told us they were unaware that two SAOs did not
                    address all required elements because they did not compare the completed
                    SAOs against the required criteria. For example, the Claims Processing
                    Timeliness SAO did not analyze or address several timeliness elements, such
                    as claims pending over 6 months and 1 year. Further, this SAO was
                    submitted 33 days beyond the required due date. During our inspection,
                    VARO management initiated corrective actions to address the required
                    missing elements; however, we were unable to assess the effectiveness of the
                    revised SAOs.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, Togus, ME
Prior VA OIG        (Report No. 09-03659-111, dated March 23, 2010), we reported that VSC
Inspection
                    staff followed VBA policies by timely and accurately completing all required
                    SAOs. Results of our current inspection indicated a downward trend in the
                    VARO’s ability to complete and submit SAOs by the due date.

                    Recommendation

                    2.	 We recommend the Togus VA Regional Office Director develop and
                        implement a plan to ensure staff completely and timely address all
                        required elements of Systematic Analyses of Operations.



VA Office of Inspector General                                                                7
                                                                  Inspection of VARO Togus, ME


Management          The VARO Director concurred with our recommendation. An interim due
Response            date to the Veterans Service Center Manager is now required prior to the
                    Director’s due date to ensure VARO staff complete SAOs timely.
                    Additionally, at the start of each fiscal year, a management analyst will
                    verify that all required elements are included in the SAO schedule.

OIG Comment         The Director’s comments and actions are responsive to the recommendation.




VA Office of Inspector General                                                              8
                                                                   Inspection of VARO Togus, ME


                    III. Eligibility Determinations

Entitlement to      Gulf War veterans are eligible for medical treatment for any mental disorder
Medical             they develop within 2 years of the date of separation from military service.
Treatment for
Mental
                    According to VBA policy, whenever an RVSR denies a Gulf War veteran
Disorders           service connection for any mental disorder, the RVSR also must consider
                    whether the veteran is entitled to receive mental health treatment. RVSRs
                    must address entitlement to mental health care in their decisions when the
                    entitlement can be granted.

                    In February 2011, VBA updated its Rating Board Automation 2000, a
                    computer application designed to assist RVSRs in preparing disability
                    ratings. The application provides a pop-up notification, known as a tip
                    master, to remind staff to consider Gulf War veterans’ entitlement to mental
                    health care treatment when denying service connection for a mental disorder.
                    This pop-up notification does not generate if a previous decision did not
                    address entitlement to mental health services and a mental condition is not
                    part of the current claim.

                    VSC staff completed 11 cases related to Gulf War veterans’ entitlement to
                    receive treatment for mental disorders from January to March 2013. Because
                    the decisions we reviewed were accurately processed, we determined VARO
                    staff followed VBA’s policy when making mental health care treatment
                    decisions for Gulf War veterans. Therefore, we make no recommendation
                    for improvement in this area.




VA Office of Inspector General                                                                9
                                                                   Inspection of VARO Togus, ME


                     IV. Public Contact

Outreach to          In November 2009, VA developed a 5-year plan to end homelessness among
Homeless             veterans by assisting every eligible homeless veteran willing to accept
Veterans             services. VBA generally defines “homeless” as lacking a fixed, regular, and
                     adequate nighttime residence.

                     Congress mandated that at least one full-time employee oversee and
                     coordinate homeless veterans programs at each of the 20 VAROs that VA
                     determined to have the largest veteran populations. VBA guidance, last
                     updated in September 2002, directed that coordinators at the remaining
                     VAROs be familiar with requirements for improving the effectiveness of
                     VARO outreach to homeless veterans.         These requirements include
                     developing and regularly updating a resource directory of local homeless
                     shelters, day-care facilities, and service providers. Additionally, the
                     coordinators should attend regular meetings with local homeless service
                     providers, community governments, and advocacy groups to provide
                     information on VA benefits and services.

                     Management ensured adequate outreach to homeless veterans, shelters, and
                     service providers by forming a committee of homeless coordinators
                     consisting of several public contact outreach specialists. By using the
                     committee approach, management maximized resources available to
                     participate in community service events specific to homeless veterans in
                     counties under the VARO’s jurisdiction. Because the Togus VARO is not
                     required to have a full-time coordinator, each member of the committee is
                     assigned to participate in homeless outreach events one week per month in
                     addition to their primary duties. VARO management discussed with us plans
                     to add new homeless outreach events to the monthly schedule, including a
                     collaborative effort with the Maine Department of Health and Human
                     Services.

                     Because VARO outreach staff provided information on VA benefits and
                     services to homeless shelters and service providers as required, we no
                     recommendation for improvement in this area. However, VBA needs
                     performance measures for its Homeless Veterans Outreach Program.
                     Without such measures, we cannot fully assess the effectiveness of its
                     outreach activities.




 VA Office of Inspector General                                                              10
                                                                    Inspection of VARO Togus, ME


Appendix A          VARO Profile, Scope, and Methodology of Inspection

Organization        The Togus VARO administers a variety of services and benefits, including
                    compensation benefits; vocational rehabilitation and employment assistance;
                    specially adapted housing grants; benefits counseling; and outreach to
                    homeless, elderly, minority, and women veterans.

Resources           As of May 2013, the Togus VARO had a staffing level of 178.3 full-time
                    employees. Of this total, the VSC had 74 employees assigned.

Workload            As of March 2013, the VARO reported 1,431 pending compensation claims.
                    The average time to complete claims was 127.3 days—122.7 days less than
                    the national target of 250.

Scope               VBA has 56 VAROs and 1 VSC in Cheyenne, Wyoming, that process
                    disability claims and provide a range of services to veterans. We evaluated
                    the Togus VARO to see how well it accomplishes this mission.

                    We reviewed selected management, claims processing, and administrative
                    activities to evaluate compliance with VBA policies regarding benefits
                    delivery and nonmedical services provided to veterans and other
                    beneficiaries. We interviewed managers and employees and reviewed
                    veterans’ claims folders.

                    Our review included 30 (24 percent) of 127 temporary 100 percent disability
                    evaluations selected from VBA’s Corporate Database. These claims
                    represented all instances in which VARO staff had granted temporary
                    100 percent disability evaluations for at least 18 months as of April 1, 2013.
                    As follow-up to our national audit, we also sampled 40 temporary
                    100 percent disability evaluations from the SharePoint list VBA provided to
                    the VARO as part of its national review. We also reviewed 9 of the total
                    13 TBI-related disability claims VARO staff completed from January
                    through March 2013. Four of the 13 claims folders were unavailable for
                    review because the folders were transferred to other offices for additional
                    claims processing actions.

                    Where we identify potential procedural inaccuracies, we provide this
                    information to help VAROs understand the procedural improvements it can
                    make for enhanced stewardship of financial benefits. We do not provide this
                    information to require VAROs to adjust specific veterans’ benefits.
                    Processing any adjustments per this review is clearly a VBA program
                    management decision.

                    We assessed the 11 mandatory SAOs the VARO completed in FY 2012 and
                    FY 2013. We reviewed 11 of the 14 claims processed for Gulf War veterans
                    from January through March 2013 to determine whether VSC staff had
                    addressed entitlement to mental health treatment in the rating decision

VA Office of Inspector General                                                                 11
                                                                    Inspection of VARO Togus, ME


                    documents as required. Three of the 14 claims folders were unavailable for
                    review because the folders were transferred to other VA offices. Further, we
                    assessed the effectiveness of the VARO’s Homeless Veterans Outreach
                    Program by reviewing its directory of homeless shelters and service
                    providers and determining whether staff regularly attended meetings and
                    provided information on VA benefits and services.

Data Reliability    We used computer-processed data from the Veterans Service Network’s
                    Operations Reports and Awards. To test for reliability, we reviewed the data
                    to determine whether any data were missing from key fields, included any
                    calculation errors, or were outside the time frame requested. We assessed
                    whether the data contained obvious duplication of records, alphabetic or
                    numeric characters in incorrect fields, or illogical relationships among data
                    elements. Further, we compared veterans’ names, file numbers, Social
                    Security numbers, VARO numbers, dates of claim, and decision dates as
                    provided in the data received with information contained in the claims
                    folders we reviewed.

                    Our testing of the data disclosed that they were sufficiently reliable for our
                    inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders at the Togus VARO did not disclose
                    any problems with data reliability.

                    This report references VBA’s STAR data which places the overall accuracy
                    of the VARO’s compensation rating-related decisions at 93.9 percent,
                    3.9 percentage points above VBA’s FY 2013 target of 90 percent. We did
                    not test the reliability of this data.

Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation. We planned and performed the inspection to
                    obtain sufficient, appropriate evidence to provide a reasonable basis for our
                    findings and conclusions based on our inspection objectives. We believe that
                    the evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our inspection objectives.




VA Office of Inspector General                                                                 12
                                                                               Inspection of VARO Togus, ME


Appendix B           Inspection Summary

                     Table 2 reflects the operational activities inspected, applicable criteria, and
                     whether or not we had reasonable assurance of VARO compliance.


                              Table 2. Togus VARO Inspection Summary
                                                                                                 Reasonable
        Five                                                                                     Assurance
     Operational                                      Criteria                                       of
      Activities                                                                                 Compliance
      Inspected
                                                                                                 Yes    No
                                           Disability Claims Processing
   1. Temporary      Determine whether VARO staff properly reviewed temporary 100
      100 Percent    percent disability evaluations. (38 CFR 3.103(b)) (38 CFR 3.105(e))
      Disability     (38 CFR 3.327) M21-1 MR Part IV, Subpart ii, Chapter 2, Section J) (M21-     X
      Evaluations    1MR Part III, Subpart iv, Chapter 3, Section C.17.e)

   2. Traumatic      Determine whether VARO staff properly processed claims for all
      Brain Injury   disabilities related to in-service TBI. (Fast Letter 08-34 and 08-36)               X
      Claims         (Training Letter 09-01)

                                              Management Controls
    3. Systematic    Determine whether VARO staff properly performed formal analyses of
       Analysis of   their operations through completion of SAOs. (M21-4, Chapter 5)                     X
       Operations

                                            Eligibility Determinations
    4. Gulf War      Determine whether VARO staff properly processed Gulf War veterans’
       Veterans’     claims, considering entitlement to medical treatment for mental illness.
       Entitlement   (38 USC 1702) ( M21-1MR Part IX, Subpart ii, Chapter 2) (M21-1MR Part        X
       to Mental     III, Subpart v, Chapter 7) (FL 08-15) (38 CFR 3.384) (38 CFR 3.2)
       Health
       Treatment
                                                  Public Contact
    5. Homeless      Determine whether VARO staff provided effective outreach services.
       Veterans      (Public Law 107-95) (VBA Letter 20-02-34) (VBA Circular 27-91-4)
       Outreach      (FL 10-11) (M21-1, Part VII, Chapter 6) (M27-1, Part II, Chapter 2)          X
       Program

    Source: VAOIG
    CFR=Code of Federal Regulations, FL=Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                          13
                                                                           Inspection of VARO Togus, ME


Appendix C             VARO Director’s Comments


                  Department of
                  Veterans Affairs
                                                             Memorandum
          Date:      August 26, 2013

          From:      Director, VA Regional Office Togus, Maine

          Subj:      Inspection of the VA Regional Office, Togus, Maine

            To:      Assistant Inspector General for Audits and Evaluations (52)



                  1. 	 The Togus VARO’s comments are attached on the OIG Draft Report: 

                       Inspection of the VA Regional Office, Togus, Maine.


                  2. 	 Please refer questions to Denise Benson, Veterans Service Center Manager
                       at (207) 626-4788 ext. 5522.

                     (original signed by:)
                     SCOTT KARCZEWSKI


                     Attachment




VA Office of Inspector General                                                                      14
                                                                     Inspection of VARO Togus, ME


                                                                                      Attachment

Recommendation 1: We recommend the Togus VA Regional Office Director develop and
implement a plan to ensure staff returns insufficient medical examinations to obtain the evidence
required to support traumatic brain injury evaluations.

Togus RO Response: Concur

While we generally concur with the findings with the Traumatic Brain Injury (TBI) rating
decisions in the report, it should be noted neither TBI error called by the OIG inspection team
resulted in a change of benefits to the Veterans.

In order to eliminate rating TBI cases on insufficient examinations the VSCM contacted the
local VHA Exam Unit and requested all TBI Disability Benefit Questionnaires (DBQ) be
conducted prior to the Mental Health DBQ. The VHA Exam Unit has accommodated this
request. Having the examinations conducted in this order gives the mental health provider the
opportunity to delineate the psychiatric symptoms thus preventing insufficient examinations.

Additionally, all employees rating TBI cases have completed the TBI training in TMS. The
Rating Quality Review Specialists (RQRS) will continue to provide second signature reviews for
all TBI cases until the RVSR has met the requisite 90 percent accuracy with 10 concurrent
reviews.

Recommendation 2: We recommend the Togus VA Regional Office Director develop and
implement a plan to ensure staff completely and timely address all required elements of
Systematic Analyses of Operations.

Togus RO Response: Concur

It should be noted appropriate corrective action was taken while the OIG was on site. To
complete SAOs timely, two due dates are set for each SAO element. The VSCM implemented a
division due date set 14 days prior to the Director’s due date.

To ensure all elements are included in the SAO schedule, the Director’s Management Analyst
will verify, prior to the start of every fiscal year, all the elements in the M21-4 correspond with
the elements listed in the proposed SAO schedule.

Additional Comment: The OIG did not provide a recommendation regarding two errors they
called regarding processing temporary 100 percent disability evaluations. It should be noted the
Director of the Togus Regional Office does not concur with two errors the OIG inspection team
called on temporary 100% evaluations. One error called was already corrected when the
inspection team requested the claim folder for their review. The other error had a VA
examination requested and was waiting for action to be taken by the Service Center when the
OIG inspection team requested it. Both of these claims were on a list provided by Leadership
and were acted upon in a timely manner. One of these claimed resulted in an overpayment to the
Veteran. The errors called by the OIG for these two claims should be withdrawn. Further, it
should be noted the Togus Regional Office was 100 percent compliant with completion of the
list for temporary 100 percent evaluations.

VA Office of Inspector General                                                                  15
                                                           Inspection of VARO Togus, ME


Appendix D          OIG Contact and Staff Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.
                      Acknowledgments	   Nora Stokes, Director
                                         Kristine Abramo
                                         Robert Campbell
                                         Danny Clay
                                         Kyle Flannery
                                         Lee Giesbrecht
                                         Ambreen Husain
                                         Kerri Leggiero-Yglesias
                                         Nelvy Viguera Butler




VA Office of Inspector General                                                       16
                                                                    Inspection of VARO Togus, ME


Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Eastern Area Director
                    VA Regional Office Togus Director

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: Susan M. Collins, Angus S. King, Jr.
                    U.S. House of Representatives: Michael Michaud, Chellie Pingree




                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                               17
